OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/INDONESIA’S
ACEH ROAD
RECONSTRUCTION PROJECT
UNDER ITS TSUNAMI
PROGRAM

AUDIT REPORT NO. 5-497-07-008-P
JULY 11, 2007




MANILA, PHILIPPINES
Office of Inspector General


July 11, 2007

MEMORANDUM

TO:                  USAID/Indonesia Director, William M. Frej

FROM:                RIG/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Indonesia’s Aceh Road Reconstruction Project Under Its Tsunami
                     Program (Audit Report No. 5-497-07-008-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments in Appendix II.

This report contains two recommendations to help improve implementation of USAID/Indonesia’s
Aceh Road Reconstruction Project Under its Tsunami Recovery and Reconstruction Program.
Based on the information provided by the Mission in response to the draft report, we consider that
final actions have been taken on both recommendations upon issuance of this report.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ............................................................................................................ 1

Background .......................................................................................................................... 2

Audit Objective ....................................................................................................................... 4

Audit Findings ...................................................................................................................... 5

Is USAID/Indonesia managing the Aceh Road
Reconstruction Project Under its Tsunami Recovery and
Reconstruction Program to minimize the risk of not
completing the project on schedule and at planned cost?

     Progress Measurement and Reporting
     Needs Improvement.......................................................................................................10

     Public Information Activities Not Fully
     Implemented................................................................................................................... 11

Evaluation of Management Comments ........................................................................... 13

Appendix I – Scope and Methodology............................................................................. 14

Appendix II – Management Comments ........................................................................... 16
SUMMARY OF RESULTS
After the tsunami struck the Indonesian province of Aceh in December 2004,
USAID/Indonesia committed to implement a $245 million signature infrastructure road
project (referred to as the “Aceh road project”) as part of its Tsunami Recovery and
Reconstruction Program. In July 2005, USAID/Indonesia signed a bilateral agreement
with the Government of Indonesia (GOI) for all the tsunami-related post-relief activities in
Aceh and a month later the Mission’s contractor began road clean-up, maintenance,
repair, and some rehabilitation work. In October 2006, construction began on four road
segments totaling 40 kilometers (km) along the new planned route. The Mission awarded
a contract in June 2007 for the remaining road construction totaling 104 km and planned to
complete it in February 2010. (See pages 2 and 3.)

Prior reviews of the Aceh road project conducted by the Government Accountability Office
(GAO) and a prior audit conducted by the OIG identified construction delays and
increased costs, and GAO concluded that USAID/Indonesia faced increased risks of
such. Consequently, as part of its fiscal year 2007 audit plan, the Regional Inspector
General/Manila performed this audit to determine whether USAID/Indonesia was
managing the Aceh road project to minimize the risk of not completing the road project on
schedule and at planned cost. (See pages 3 and 4.)

The audit concluded that USAID/Indonesia was managing the Aceh road project to
minimize its risk exposure, but some risk factors were beyond the Mission’s control and
caused delays. The most significant risk factor and cause of delays was the length of time
needed for the GOI to acquire 3,636 parcels of private land for the new planned route.
Complicating the process was Aceh’s history of protracted armed conflict and the
tsunami, during which land records were lost or destroyed. Another significant risk factor
that caused delays was the contractor’s ineffective management of equipment, labor, and
onsite supervision for the first 40 km of road construction. Although some construction
progress was achieved, the contractor was behind schedule. The Mission took timely
actions to address this issue, but it believes that the contractor may not complete the
construction on time and was considering other remedies. (See pages 5 through 10.)

In addition to the issues just discussed, we noted that USAID/Indonesia needed to
improve its measurement and reporting of road construction progress, and it needed to
fully implement public information activities to inform the public on the progress of the
Aceh road project. (See pages 10 through 12.)

This report made two recommendations to help improve implementation of
USAID/Indonesia’s Aceh road project. (See pages 11 and 12.) USAID/Indonesia agreed
with the recommendations and took action on both of them. Based on our evaluation of
USAID/Indonesia’s written comments and supporting documentation, we consider that
final actions have been taken on the recommendations upon issuance of this report. (See
page 13.)

USAID/Indonesia’s comments are included as Appendix II to this report. (See page 16.)




                                                                                          1
BACKGROUND
On December 26, 2004, a 9.0 magnitude earthquake occurred off the Sumatra coast of
Indonesia, triggering tsunamis that caused massive flooding, damage and loss of life in the
coastal communities of the region. Hardest hit was the Indonesian province of Aceh,
where an estimated 174,000 people were killed, and over 500,000 displaced. Most of the
national coastal road from Banda Aceh to Meulaboh was destroyed.

The U.S. government, acting through USAID, committed a $400 million grant of assistance
for the tsunami-affected areas in Indonesia. In turn, USAID/Indonesia used this funding to
establish its Tsunami Recovery and Reconstruction Program to assist Indonesian victims
of the tsunami. On July 7, 2005, USAID/Indonesia signed a Strategic Objective
Agreement 1 with the Government of Indonesia (GOI) for all the tsunami-related post-relief
activities in Aceh.

As part of its program, USAID/Indonesia committed to implement a $245 million signature
infrastructure road project (referred to as the “Aceh road project”) extending about 243
kilometers (km) from Banda Aceh to Meulaboh. USAID/Indonesia planned to implement
this project under three separate contracts:

•   1st Contract – Priority Design Build (Priority).             On August 23, 2005,
    USAID/Indonesia awarded a one-year $12 million contract to PT Wijaya Karya (WiKa),
    an Indonesian construction firm, for design and construction services along the road
    between Banda Aceh and Lamno. The contract required WiKa to design and
    construct up to about 10 km of new road and perform other road maintenance, repair,
    and rehabilitation work. Subsequently, the Mission modified the contract to build about
    30 km more of new road, including bridges and culverts, raising the total contract
    amount to about $81 million and extending the estimated completion date from
    September 22, 2006 to December 31, 2007.

•   2nd Contract – Design and Construction Management. On November 10, 2005,
    USAID/Indonesia awarded a $35 million contract to Parsons Global Services Inc
    (Parsons), a U.S. Architect-Engineer firm, to cover the design of the remaining
    segments of the Aceh road project, review WiKa’s design of 10 km of road, and
    provide construction management over the entire Aceh road project. The contract
    period was about 45 months or until the end of July 2009.

•   3rd Contract – Large-scale Prime Construction (Prime).              USAID/Indonesia
    originally planned on awarding this contract in September 2006 to complete the
    remaining road construction, including bridges and culverts. However, this was
    delayed because the Mission and prospective contractor did not reach agreement on
    price. In October 2006, the Mission began a new solicitation process and the contract
    was awarded in June 2007. The project was scheduled to be completed by
    February 2010.


1
  A Strategic Objective Agreement is the principal bilateral grant agreement used by USAID with a
foreign government or a subdivision of it.



                                                                                               2
Although USAID/Indonesia originally committed to reconstruct the entire 243 km roadway
between Banda Aceh and Meulaboh, the Government of Japan through its Japan
International Cooperation System (JICS) was already rehabilitating the existing road from
Calang to Meulaboh. In June 2006, USAID/Indonesia, JICS, and the GOI reached an
agreement that there would be a single route for the entire roadway between Banda
Aceh and Meulaboh, and that JICS would continue its road work from Calang to
Meulaboh. As a result, USAID/Indonesia reduced its original project scope to about
144 km from 243 km, which included building two bypasses in the JICS road segment.
Figure 1 shows a map of the Aceh road project, including the JICS segment.

                        Figure 1: Map of the Aceh Road Project




        Contracts    Start Date    Finish Date    Road Length    Bridges    Culverts
       Priority      Oct 2006       Dec 2007             40 km        14          65
       Prime         Jun 2007       Feb 2010            104 km        17        128
                        Total                          144 km         31        193

In November 2005, the OIG conducted an audit of USAID/Indonesia’s Banda Aceh-Lamno
road reconstruction activities implemented by WiKa for the priority road segments. 2 The
OIG concluded that it could not determine whether all of the road reconstruction activities
were on schedule to be completed by the overall project completion date and within the
overall estimated costs because the Mission did not have an approved road design or an
approved implementation plan in place.



2
 OIG, Audit of USAID/Indonesia’s Banda Aceh–Lamno Road Reconstruction Activities Under Its
Tsunami Recovery and Reconstruction Program, Report No. 5-497-06-003-P (Manila, Philippines:
March 30, 2006)


                                                                                          3
In October 2006, the Government Accountability Office (GAO) conducted a review of
USAID/Indonesia’s road reconstruction project as part of its Congressionally mandated
monitoring of U.S. reconstruction assistance to tsunami-affected countries. In its report,
GAO concluded that USAID/Indonesia faced increased risk that it may not successfully
complete the project at planned cost and on schedule because of factors typically related
to the difficulty of operating in a post-disaster environment, such as increased construction
costs and delays in land acquisition. 3

As a result, USAID/Indonesia did realize an increase in costs above the original
government estimate. As of March 31, 2007, the total budget for the Aceh road project
was estimated to cost $253 million, of which USAID/Indonesia had obligated about $103
million and disbursed $18 million for Aceh road project activities.




         OIG photograph of road construction near the Raba River bridge crossing
                   at Km 25 in Aceh Province, Indonesia. (March 2007)


AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2007 annual audit plan to answer the following question:

•   Is USAID/Indonesia managing the Aceh Road Reconstruction Project under its
    Tsunami Recovery and Reconstruction Program to minimize the risk of not completing
    the project on schedule and at planned cost?

Appendix I contains a discussion of the audit’s scope and methodology.
3
 GAO, Foreign Assistance USAID Signature Tsunami Reconstruction Efforts in Indonesia and Sri
Lanka Exceed Initial Cost and Schedule Estimates, and Face Further Risks, GAO-07-357
(Washington, D.C.: February 28, 2007)


                                                                                           4
AUDIT FINDINGS
USAID/Indonesia was managing the Aceh Road Reconstruction Project under its Tsunami
Recovery and Reconstruction Program to minimize the risk of not completing the project
on schedule and at planned cost. While USAID/Indonesia faced many unforeseen
difficulties during the start of the Aceh road project in a post-disaster environment, since
about May 2006 the Mission significantly stepped up its actions to proactively identify,
prioritize, and manage both internal and external factors that could impact on such
risk. Nevertheless, these risk factors—some of which were beyond the Mission’s
control—impacted on the Aceh road project and caused delays. Table 1 shows a
summary of eight risk factors listed by priority and actions taken on them by the Mission
and the U.S. Embassy/Indonesia as of April 15, 2007.

            Table 1: Summary of USAID/Indonesia’s Management of Risk Factors

    Priority 4          Risk Factors                  Actions Taken to Address Risk Factors
    High         Length of time needed by      • Cognizant Technical Officer (CTO) actively engaged
                 the Government of               and working with GOI officials at all levels
                 Indonesia (GOI) to acquire    • Stepped-up outreach program on the ground to
                 3,636 parcels of private land   facilitate land transfers
                 for road right-of-way         • Mission Director and U.S. Ambassador met with
                                                 senior GOI officials
    Medium       Priority contractor not       • CTO and design/construction management
                 effectively managing its        contractor actively engaged and working with the
                 resources                       priority contractor to help it better manage work load
                                                 and expedite construction
                                               • CTO and design/construction management
                                                 contractor actively met with local communities to
                                                 remove impediments
                                               • Mission hired an Indonesian road engineer in Aceh
    Medium       GOI’s inconsistent tax        • Mission Director and U.S. Ambassador met with
                 exemption policies for          senior GOI officials
                 USAID funded projects         • Legal advisor and program officer actively meeting
                                                 with GOI Ministry of Finance tax officials
                                               • USAID/Indonesia sent formal correspondence to GOI
                                                 Ministry of Finance tax officials
    Medium       Public misinformation         • USAID/Indonesia posted some project information on
                                                 its website
    Low          Local community disputes,     • CTO and outreach contractors actively working with
                 misunderstandings, and          local communities and leaders to resolve disputes,
                 other issues regarding the      misunderstandings, and other issues that could affect
                 Aceh road project               construction progress
    Low          Rising construction costs     • Reduced scope of work to more realistic level under
                                                 current budget and cost environment


4
  The OIG worked with the Mission to prioritize its risk factors as low, medium, or high. A higher
priority indicated a condition with a high probability of occurrence and a negative consequence
that would have a significant future impact on completing the Aceh road project on schedule and at
planned cost.


                                                                                                      5
                                            • Changed priority contract to fixed price for
                                              construction component
                                            • Untied prime contract bidding from only U.S. firms
                                            • Prime contract for large-scale construction will be
                                              fixed price
 Low        Delay in awarding the           • New solicitation process was completed and
            prime contract for large-          contract was awarded in June 2007
            scale construction
 Low        Lack of experienced civil       • Hired a senior civil engineer with 40 years of
            engineer/CTO to oversee           experience to serve as CTO and team leader for the
            Aceh road project on behalf       Aceh road project
            of USAID

Despite USAID/Indonesia’s efforts, the Aceh road project incurred preconstruction and
construction delays because of the risk factors listed above. The following narrative
discusses some of the significant risk factors, their associated delays, and the Mission’s
efforts to minimize the delays.

While USAID/Indonesia was doing what it could to minimize the risk of not completing the
project on schedule and at planned cost, the Mission experienced delays on significant
preconstruction activities, as shown in Table 2.

   Table 2: Timeline of Delays Incurred for Significant Preconstruction Activities

                                                             Planned         Actual        Months
        Significant Preconstruction Activities                 Date           Date          Delay
 • Hire civil engineer/CTO to oversee Aceh road
                                                             Dec 2005       May 2006          5
   project on behalf of USAID
 • Award design and construction management
                                                             Aug 2005       Nov 2005          3
   contract
 • Award subcontract for outreach program to facilitate
                                                             Nov 2005       Feb 2006          3
   land acquisitions
 • Prepare initial road survey and planned route             Jan 2006       Mar 2006          2
 • Completed and presented final planned route               Feb 2006       Jun 2006          4
 • Acquire first parcels of land to start road
                                                             Apr 2006       Oct 2006          5
   construction in priority segments
 • Acquire first parcels of land to start road
                                                             Apr 2006       Nov 2006          7
   construction in prime segments
 • Award prime construction contract                         Sep 2006       Jun 2007          9

The most significant risk factor and cause of delays was the length of time needed for the
Government of Indonesia (GOI) to acquire private land for the Aceh road project. Industry
experience shows that acquiring land for large-scale road construction projects is
typically difficult, lengthy, and sensitive to the communities affected.               For
USAID/Indonesia’s Aceh road project, acquiring privately owned land along the planned
route emerged as the most challenging issue. Before any road construction could
proceed, land had to be acquired by the GOI. The inherent difficulty of acquiring land
was compounded by Aceh’s history of protracted armed conflict and the tsunami. Land
records were lost or destroyed in the tsunami and limited information on land valuation
was available at that time.


                                                                                                    6
The GOI started its land acquisition process in August 2006, after USAID/Indonesia
presented the final planned route for the Aceh road project, which was delayed by about
four months because the Mission’s contractor Parsons Global Services Inc (Parsons) had
difficulties with its road surveying process. In October 2006, the GOI acquired its first
parcels of land to start road construction in the priority segments. At the time of our audit,
the GOI was making progress, but more than half of the land was not yet acquired. The
GOI explained that it could not start acquiring land until it knew the exact route of the new
roadway. However, USAID/Indonesia officials believed that more could have been done
to get the process underway, such as determining fair market values of land. Table 3
shows the status of the land acquisition process as of April 15, 2007.

               Table 3: Status of Land Acquisitions for the Aceh Road Project
                                       (April 15, 2007)

                                  Priority Contract   Prime Contract             Totals
               Status             Parcels     Km      Parcels   Km     Parcels    Km Percent
    Private land to be acquired     1,195        40      2,441    73     3,636    113   100%
    Private land acquired 5           591        20        922    27     1,513      47   42%
    Remaining                         604        20      1,519    46     2,123      66   58%

Initially, USAID/Indonesia did not anticipate the significant amount of time needed to
acquire land and the related difficulties, which was not factored into the Aceh road
project’s schedule. However, as the issue started to unfold, the Mission took appropriate
actions. For example, USAID/Indonesia’s CTO for the Aceh road project and its
community outreach team continually met with government officials at the district and
provincial levels to expedite land acquisition and to ensure that land was acquired in a
way that included villagers in the process. Additionally, the Mission Director and U.S.
Ambassador met with senior GOI officials to emphasize the need to move quickly on
land acquisitions.

To some observers, the amount of time needed for the GOI to acquire land could be
viewed as slow, but when compared to other large-scale road projects in Indonesia, the
GOI’s pace was faster than the norm for the Aceh road project. For example, land
acquisition for a 1,000 km toll road in Java started in 2005, but as of March 2007, only
about 48 km of land had been acquired. Other land acquisition efforts have taken 10
years or longer to complete. USAID/Indonesia’s proactive actions and its outreach
program greatly contributed to pushing the process forward for the Aceh road project.
Although the GOI had acquired only 42 percent of the total land needed as of
April 15, 2007, it anticipates acquiring all 3,636 parcels of the land by June 2007 because
a significant number of the remaining parcels were already being processed.

USAID/Indonesia’s delay in awarding the prime contract for the large-scale construction
was another risk factor that had an impact on the Aceh road project’s schedule and
planned cost. The Mission originally intended to award the contract in September 2006.
This slipped because the Mission and prospective contractor did not reach agreement on
5
  Private land acquired does not include 31 km of government land that was released for
construction in the prime contract segment of the roadway. The total amount of land required for
the planned route from Banda Aceh to Calang was about 144 km, or 31 km of government land and
113 km of private land.


                                                                                               7
price. In October 2006, the Mission began a new solicitation process and the contract was
awarded in June 2007, about nine months after the planned award date.




       OIG photograph of road and bridge construction at Km 46 adjacent to existing
         road with green dump truck on it (right side) in Aceh Province, Indonesia.
        Inset: opposite view of bridge construction (right side) next to a temporary
                              bridge (left side). (March 2007)

Upon closer inspection, USAID/Indonesia’s delay in awarding prime contract for the large-
scale construction was overshadowed by the GOI’s enormous task of acquiring 3,636
parcels of private land for the road right-of-way. The considerable amount of time needed
for the GOI to accomplish this task could have worked in the Mission’s favor. Had the
Mission awarded the contract in September 2006, the contractor could have incurred
about six months of idle time while waiting for enough land to be released to start
construction. Idle time typically causes increased costs, while taking away from funding
for construction. 6

However, other delays did impact on the Aceh road project’s schedule and planned cost.
For example, Parsons missed the target date by about four months for completing the final
planned route for the new roadway, which significantly impacted on other dependent
activities. Specifically, without the planned route, land acquisitions and road construction
could not proceed. The four-month delay occurred when Parsons had problems with its
aerial survey process and had to resort to ground surveying.



6
 According to the National Research Council, delays in construction projects are likely to increase
costs.


                                                                                                 8
Another example was USAID/Indonesia’s delay in hiring a senior civil engineer to serve as
its CTO and project leader. The Government Accountability Office (GAO) reported in
April 2006 that the Mission needed to fill technical positions with experienced
staff—specifically the CTO position—to provide technical oversight of the Aceh road
project. 7 This was delayed by about five months because the Mission re-advertised the
position at a higher pay-level to attract more qualified and experienced people. The delay
hampered the Mission in the early stages of the Aceh road project when it needed
technical expertise and leadership to make key engineering decisions and engage the
GOI as appropriate. However, the Mission re-advertised the position and it proved
favorable because it was able to hire a senior civil engineer with 40 years of experience.
Since about May 2006 when the CTO was hired, the Mission’s stepped up efforts to
address the project’s difficulties were a direct result of the CTO’s hands-on actions.

Similar to the preconstruction delays, USAID/Indonesia incurred construction delays on
the priority segments of the Aceh road project. Specifically, the priority contractor’s
ineffective management of its equipment, labor, and onsite supervision resulted in
inefficient operations and slow overall progress. In December 2006, Parsons first
reported this issue in its monthly report to USAID/Indonesia when it became clear that it
was an emerging risk factor. Specifically, Parsons reported that the priority contractor, PT
Wijaya Karya (WiKa), had not mobilized enough resources to maintain construction
operations concurrently in each of the four priority road segments. OIG auditors also
observed idle equipment and inactive laborers during site visits made in March and
April 2007. Although WiKa achieved some progress on the Aceh road project, it was
behind schedule because of its management issues. Table 4 shows a summary of
progress made on major road activities as of April 15, 2007.

      Table 4: Progress Made on Major Construction Activities in Priority Segments
                                   (April 15, 2007)

     Major Construction Activities in Priority Segments         Planned   Actual     Behind
           (40 km of road, 14 bridges, 65 culverts)             Complete Complete   Schedule
    • Earthworks (clearing & grubbing, land fill, embankment,
                                                                 67.7%    29.5%      -38.2%
      grading, layering, compacting)
    • Bridges (piling, abutments, bridge fabrication)            35.6%     5.9%      -29.7%
    • Box culverts and pipe culverts                             94.2%     3.0%      -91.2%
    • Drilling and blasting                                      42.2%     5.3%      -36.9%
    • Asphalt paving                                             25.1%      -        -25.1%

To address this issue, USAID/Indonesia began monitoring and supervising WiKa more
closely. For example, the CTO spent about half his time at the project site in Aceh
province and was actively engaged in helping WiKa to better manage its work load and
expedite construction. Additionally, Parsons was holding regular meetings with WiKa’s
management to review the status of mobilization deliverables such as field offices, two-
way radios, a laboratory, a concrete batch plant, and a labor camp. The intent of these
meetings was to ensure WiKa stayed on schedule. Parsons also started providing daily
training on road construction to WiKa staff.
7
  GAO, Foreign Assistance: USAID Has Begun Tsunami Reconstruction in Indonesia and Sri
Lanka, but Key Projects May Exceed Initial Cost and Schedule Estimates, GAO-06-488
(Washington, D.C.: April 14, 2006)


                                                                                               9
Despite this effort, USAID/Indonesia believes that WiKa may not complete the construction
by December 31, 2007, and has raised its concerns to WiKa’s senior management and
was also considering other remedies to address this issue.

Because USAID/Indonesia has taken actions to address the risk factors discussed above,
we did not make a recommendation.

Although delays were incurred on the Aceh road project, USAID/Indonesia made some
progress in the priority segments of the roadway, but the Mission’s reporting of such
progress could be improved to better measure and communicate results achieved.
Additionally, public information activities need to be fully implemented to accurately and
timely inform the public on the progress of the Aceh road project. These issues are
discussed in the following narrative.

Progress Measurement and
Reporting Needs Improvement

    Summary: USAID policy requires that missions establish performance management
    systems to measure progress towards their intended objectives. Although
    USAID/Indonesia actively monitored the Aceh road project, progress measurement and
    reporting could be improved in two areas. Specifically, the Aceh road project’s
    performance indicators, primarily designed by USAID/Washington, were not fully useful
    for measuring and reporting on major road construction activities and Parsons’ progress
    reports submitted to the Mission did not include performance data that measured actual
    results against expected results. This occurred because the Mission neither set
    additional performance indicators to appropriately capture the progress of such road
    construction activities nor required Parsons to include performance measures in its
    progress reports. As a result, progress was being made on the Aceh road project, but
    the Mission could not effectively measure and communicate this to stakeholders.

USAID’s Automated Directives System (ADS) 203.3.2 states that missions are responsible
for establishing systems to measure progress towards their intended objectives.
Additionally, ADS 200.6 defines performance management as “…the systematic process
of monitoring the results of activities; collecting and analyzing performance information to
track progress toward planned results; using performance information to influence
program decision-making and resource allocation; and communicating results achieved, or
not attained, to advance organizational learning and tell the Agency’s story.”

In September 2005, USAID’s Bureau for Asia Near East/Washington (ANE), in
collaboration with the tsunami-affected missions, established a set of common
performance indicators for reporting progress on tsunami reconstruction projects. The
goal was to design high-level performance indicators for stakeholders in Washington, D.C.
specifically senior officials in ANE and the U.S. Congress. The following three common
performance indicators were set for the Aceh road project and were incorporated into
USAID/Indonesia’s Performance Management Plan:

•     Kilometers of road built
•     Number of bridges built (including culverts)
•     Number of bridges repaired (including culverts)


                                                                                         10
ADS 203.3.4 states that performance indicators are used to observe progress and to
measure actual results compared to expected results. ADS 203.3.4.1 states that missions
should select performance indicators that are the most appropriate for the result being
measured.

However, the three common performance indicators were designed at a level too high to
be fully useful for measuring and reporting on major road construction activities.
Specifically, the performance indicators could not capture the progress of construction
activities such as clearing and grubbing, land fill, embankment, grading, layering,
compacting, bridge piling, bridge fabrication, and asphalt paving.         Further, the
performance indicator for measuring “kilometers of road built” was unclear because the
point of completion could be interpreted in different ways. Moreover, USAID/Indonesia
officials told us that the performance indicator for measuring the “number of bridges
repaired (including culverts)” was no longer relevant because the Aceh road project
progressed from repairing bridges to building them.

Although USAID/Indonesia officials knew that the performance indicators were not fully
useful for measuring and reporting on major road construction activities, the Mission did
not take steps to design appropriate indicators for its Performance Management Plan.
The Mission also did not require Parsons to include performance data that measured
actual results against expected results in its monthly progress reports that were
submitted to the Mission. Consequently, progress was being made on the Aceh road
project, but the Mission could not effectively measure and communicate results achieved
to stakeholders.

We are making the following recommendation to ensure that USAID/Indonesia establishes
appropriate performance indicators that will be useful to measure actual results against
expected results and communicate results achieved on the Aceh road project.

   Recommendation No. 1: We recommend that USAID/Indonesia (1) establish
   performance indicators at an appropriate level to measure major construction
   activities on the Aceh road project and (2) require Parsons to report on such
   performance indicators in its monthly progress reports.


Public Information Activities
Not Fully Implemented

 Summary: USAID/Indonesia’s contract with Parsons required implementation of public
 information activities to inform stakeholders and international audiences on the
 progress of the Aceh road project. As part of this effort, Parsons was to create a
 website with updated information on road construction activities. However, the website
 was not launched and only limited information was being released to the public.
 Although Parsons submitted the website design to the Mission, the CTO had not yet
 approved it. This occurred because the CTO had other competing requirements in
 dealing with project delays and impediments. Consequently, USAID/Indonesia was not
 getting its message out on the positive achievements of the Aceh road project, while
 negative and sometimes inaccurate information was being reported in the news media.




                                                                                      11
According to USAID/Indonesia’s contract with Parsons, public information activities were
to be implemented to provide timely and accurate project information to meet public
information expectations, provide information about construction and candid progress
updates, and promote public satisfaction with the project. An integral component of such
activities was the creation of a website to provide updated progress information, progress
reports to USAID, and periodic news releases during both design and construction phases
for both the priority and prime contracts. The intent of the website was to serve as an
official center of information for project stakeholders and international audiences.

In January 2006, USAID/Indonesia’s Contracting Officer provided consent for Parsons to
subcontract with International Resources Group (IRG) to implement, among other things,
public information activities for the Aceh road project. IRG was also tasked to create the
project website. In October 2006, IRG completed the website design and Parsons
submitted it to the Mission for approval. However, as of April 20, 2007, the website had
not yet been launched. Additionally, while IRG prepared monthly stakeholder reports,
such reports and other project information were not widely made available to the public.

The CTO explained that he did not have time to review and approve the website because
he was dealing with higher priority issues such as delays and impediments on the Aceh
road project. Some Mission officials also believed that it would be better to defer public
information activities until more progress was made on road construction. Nevertheless,
USAID/Indonesia was not getting its message out on the positive achievements of the
Aceh road project, while negative and sometimes inaccurate information was being
reported in the news media.

Public information plays a vital role in the success of USAID’s programs and activities.
USAID/Indonesia and its partners could use a website as a tool to respond quickly to
stakeholders and actively communicate to key in-country and international audiences. It
could also serve as a positive source of information for all readers as the Aceh road
project moves forward with construction. Therefore, we are making the following
recommendation.

   Recommendation No. 2: We recommend that USAID/Indonesia work with Parsons
   to fully implement public information activities, including a website, to accurately
   and timely inform the public on the progress of the Aceh road project.




                                                                                          12
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Indonesia agreed with our two recommendations
and took actions to implement them. Based on our review of the Mission’s comments,
detailed actions, and subsequent supporting documents received, we determined that final
actions have been taken on both recommendations.

USAID/Indonesia’s written comments on the draft report are included in their entirety as
Appendix II to this report.




                                                                                     13
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila conducted this audit in accordance with generally
accepted government auditing standards to determine whether USAID/Indonesia was
managing the Aceh Road Reconstruction Project under its Tsunami Recovery and
Reconstruction Program to minimize the risk of not completing the road project on
schedule and at planned cost. As of March 31, 2007, the total budget for the Aceh road
project was $253 million, of which USAID/Indonesia had obligated about $103 million and
disbursed $18 million for Aceh road project activities.

The audit was performed in Indonesia during the periods March 12-22 and
April 11-20, 2007, and it covered USAID/Indonesia’s management of Aceh road project
activities implemented by PT Wijaya Karya (WiKa) and Parsons Global Services Inc from
October 4, 2005 through April 15, 2007. The audit considered both internal and external
factors that could impact on the Mission’s risk of not completing the Aceh road project on
schedule and at planned cost. In considering such risk factors, we assessed the likelihood
of considerable delays, increased costs, imminent failure, and noncompliance with laws,
regulations or internal policies. Fieldwork was conducted at USAID/Indonesia, the U.S.
Embassy/Indonesia, the Government of Indonesia’s (GOI) Agency for Rehabilitation and
Reconstruction of Aceh-Nias, the Office of the Deputy Governor for Aceh Province, WiKa’s
office in Jakarta, Parson’s office in Banda Aceh, and selected segments of road project
activities in Aceh province.

As part of the audit, we assessed the significant internal controls used by USAID/Indonesia
to manage its Aceh road project activities. The assessment included controls related to
whether the Mission (1) conducted and documented site visits to evaluate progress and
monitor quality, (2) required and approved an implementation plan, (3) reviewed progress
reports submitted by the contractors, and (4) compared contractors’ reported progress to
planned progress and the Mission’s own evaluations of progress. We also reviewed the
Mission’s Federal Managers’ Financial Integrity Act report for fiscal year 2006, and U.S.
government reports for any issues related to the audit objective. Finally, we reviewed
relevant prior audit reports, including those issued by the U.S. Government Accountability
Office.

Methodology
To answer the audit objective, we interviewed officials from USAID/Indonesia, the U.S.
Embassy/Indonesia, the GOI, the Office of the Deputy Governor for Aceh Province, and
contractors. We also reviewed and analyzed relevant documents. This documentation
included contracts, performance monitoring plans, site visit and other monitoring reports,
progress reports, financial records, and other records showing actions taken by the
Mission to manage the Aceh road project.

In answering the audit objective, we identified and prioritized risk factors as low, medium,
or high. We performed this assessment in collaboration with USAID/Indonesia. A higher
priority indicated a condition with a high probability of occurrence and a negative



                                                                                         14
                                                                            APPENDIX I


consequence that would have a significant future impact on completing the Aceh road
project on schedule and at planned cost.

Parsons mostly used an Excel database to track progress on the Aceh road project. We
performed a number of steps to test the reasonableness, reliability, and accuracy of the
database. For example, we gained an understanding of Parsons’ performance monitoring
and evaluation processes, from the point of origination in the field to the point of
consolidation into the database. We reviewed a judgmental sample of site inspection
reports and traced them to the database and to monthly summary reports. We assessed
the formulas applied to data in the database to arrive at summary performance results and
performed recalculations of data.

A materiality threshold was not established for the audit. Instead, auditor judgment was
used to assess whether USAID/Indonesia took appropriate and necessary actions in
managing the Aceh road project to minimize the risk of not completing the project on
schedule and at planned cost.




                                                                                      15
                                                                   APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM
                                                   June 12, 2007

TO:               Catherine Trujillo, Inspector General, RIG/Manila
FROM:             William M. Frej, Mission Director, USAID/Indonesia /s/
SUBJECT:          Management Comments to the Audit of
                  USAID/Indonesia’s Aceh Road Reconstruction Project
                  Under Its Tsunami Program (Audit Report No. 5-497-07-
                  00X-P)

USAID/Indonesia agrees with the two recommendations proposed by the
Office of the Inspector General in its Audit of USAID/Indonesia’s Aceh
Road Reconstruction Project Under Its Tsunami Program (Audit Report No.
5-497-07-00X-P). USAID/Indonesia appreciates the efforts of the audit
team to present a well-written, accurate and fair audit report.

The Aceh Road Team is taking the following corrective actions to address
concerns raised in this report:

Recommendation 1: We recommend that USAID/Indonesia (1) establish
performance indicators at an appropriate level to measure major construction
activities on the Aceh road project and (2) require Parsons to report on such
indicators.

Response: The Aceh Road Team has reviewed potential indicators in
consultation with its contractor, Parsons. The Team has agreed to use 6
visual graphs as reporting tools to show progress on major elements of the
project. The graphs include:




                                                                             16
                                                                  APPENDIX II


   1.    An overall progress completion graph weighted in terms of value
         ( S curve )
   2.    A chart indicating road open for public use with project completion
         date requirements noted
   3.    A gant chart showing status of box culverts by section
   4.    A gant chart showing status of concrete by section
   5.    A gant chart showing status of embankment by section
   6.    A gant chart showing status of bridges each by section

Parsons will present these graphs in its monthly progress reports to
USAID/Indonesia. The graphs will be published in the upcoming report
covering activities in May.

Recommendation 2: We recommend that USAID/Indonesia work with
Parsons to fully implement public information activities, including a
website, to accurately and timely inform the public on the progress of the
Aceh road project.

Response:

USAID/Indonesia has authorized International Resources Group (IRG), a
sub-contractor to Parsons, to fully develop a project web site. The project
CTO has reviewed proposed web-site content. IRG expects to launch the
web-site by June 15, 2007.

Given USAID/Indonesia’s actions described above, we request that
RIG/Manila concur that management decisions have been reached on both
recommendations.




                                                                              17
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
